Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





USE OF MODIFIER 59 TO BYPASS

    MEDICARE’S NATIONAL 

 CORRECT CODING INITIATIVE 

           EDITS 





                    Daniel R. Levinson

                    Inspector General 


                     November 2005

                     OEI-03-02-00771

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                              S U M M A R Y                                 



                  OBJECTIVE
                  To determine (1) whether modifier 59 is being used inappropriately to
                  bypass Medicare’s National Correct Coding Initiative (CCI) edits
                  and (2) to what extent Medicare carriers are reviewing the use of
                  modifier 59.


                  BACKGROUND
                  In January 1996, the Centers for Medicare & Medicaid Services (CMS)
                  began the CCI. This initiative was developed to promote correct coding
                  by providers and to prevent Medicare payment for improperly coded
                  services. The initiative consists of automated edits that are part of the
                  carriers’ claims processing systems.

                  Specifically, the CCI edits contain pairs of Healthcare Common
                  Procedure Coding System codes (i.e., code pairs) that generally should
                  not be billed together by a provider for a beneficiary on the same date of
                  service. All code pairs are arranged in a column 1 and column 2 format.
                  The column 2 code is generally not payable with the column 1 code.
                  Throughout this report we will refer to the column 1 code as the
                  primary code or service and the column 2 code as the secondary code or
                  service.

                  Under certain circumstances, a provider may bill for two services in a
                  CCI code pair and include a modifier on the claim that would bypass the
                  edit and allow both services to be paid. A modifier is a two-digit code
                  that further describes the service performed. Thirty-five modifiers can
                  be used to bypass the CCI edits. Modifier 59 is one of these modifiers.

                  Modifier 59 is used to indicate that a provider performed a distinct
                  procedure or service for a beneficiary on the same day as another
                  procedure or service. It may represent a different session, different
                  procedure or surgery, different anatomical site or organ system,
                  separate incision or excision, separate lesion, or separate injury (or area
                  of injury in extensive injuries). Modifier 59 should be attached to the
                  secondary, additional, or lesser service in the code pair.1 According to
                  CMS, this is the second code in a CCI code pair.2 When modifier 59 is

                  1 “Medicare Claims Processing Manual,” Chapter 23, section 20.9,
                   http://www.cms.hhs.gov/manuals/104_claims/clm104c23.pdf.
                  2 National Correct Coding Initiative Frequently Asked Questions,
                   http://www.cms.hhs.gov/physicians/cciedits/.



OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S       i
E   X   E C     U T   I    V     E         S   U M             M       A      R Y


                          used, a provider’s documentation must demonstrate that the service
                          was distinct from other services performed that day.3
                          CMS provides carriers with guidance and instructions on the correct
                          coding of claims, including the use of modifier 59, through manuals,
                          transmittals, and CMS’s Web site. Carriers, in turn, are required by
                          CMS to educate providers concerning issues such as correct coding.
                          Carriers are also responsible for developing their own prepayment and
                          postpayment medical review strategies to identify billing errors.

                          We selected a stratified random sample of 350 code pairs for services
                          that bypassed CCI edits using modifier 59 in fiscal year (FY) 2003. An
                          independent contractor conducted a coding review of the medical records
                          for these services to determine the appropriateness of the use of
                          modifier 59. We performed separate analysis on our FY 2003 data to
                          determine whether modifier 59 was billed with the primary or
                          secondary code. We also surveyed each Medicare carrier to learn about
                          their medical review activities, claims processing systems, and provider
                          education activities related to modifier 59.


                          FINDINGS
                          Forty percent of code pairs billed with modifier 59 in FY 2003 did not
                          meet program requirements, resulting in $59 million in improper
                          payments. Medicare allowed payments for 40 percent of code pairs that
                          did not meet the following program requirements: (1) the services were
                          not distinct from each other or (2) the services were not documented.
                          Specifically, modifier 59 was used inappropriately with 15 percent of the
                          code pairs because the services were not distinct from each other.
                          Medicare allowed an estimated $31 million for the secondary services in
                          these code pairs. Secondary services are the services that CCI edits would
                          deny. Most of these services were not distinct because they were
                          performed at the same session, same anatomical site, and/or through the
                          same incision as the primary service. Five code pairs represented
                          53 percent of the services that were not distinct. In addition to services
                          that were not distinct, 25 percent of the code pairs billed with modifier 59
                          were not adequately documented. Medicare allowed an estimated
                          $28 million for these services. In most of these cases, either one or both of
                          the services billed were not documented in the medical record, or the

                          3 “Medicare Claims Processing Manual,” Chapter 12, section 30,
                           http://www.cms.hhs.gov/manuals/104_claims/clm104c12.pdf.



    OEI-03-02-00771       USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   ii
E X E C U T I V E                   S U          M M A R Y


                   documentation indicated that another code should have been billed for one
                   or both of the services performed. In the remaining cases, either the
                   documentation was insufficient to make a determination, or the
                   documentation was not provided.
                   Eleven percent of code pairs billed with modifier 59 in FY 2003 were
                   paid when the modifier was billed with the incorrect code. Pursuant
                   to the “Medicare Claims Processing Manual,” modifier 59 should be
                   billed with the secondary, additional, or lesser service in a CCI code
                   pair. However, our analysis of 3.4 million code pairs showed that
                   11 percent of the code pairs were paid when modifier 59 was attached to
                   the primary code only. This billing error represented $27 million in
                   Medicare paid claims. Our analysis also indicated that 37 carriers paid
                   for at least 10 percent of their claims billed with modifier 59 when the
                   modifier was attached to the incorrect code.
                   Most carriers did not conduct reviews of modifier 59, but those
                   carriers that did found providers who were using modifier 59
                   inappropriately. Between 2002 and 2004, 11 of 56 carriers conducted
                   1 or more reviews of the use of modifier 59. Ten carriers completed at
                   least one review and one carrier’s only review was still in progress. All
                   of the carriers that completed reviews found providers who were using
                   modifier 59 inappropriately. One-third of 32 reviews completed found
                   error rates of 40 percent or more for services billed with modifier 59.


                   RECOMMENDATIONS
                   The Centers for Medicare & Medicaid Services should encourage
                   carriers to conduct prepayment and postpayment reviews of the use
                   of modifier 59. Our inspection found that 40 percent of code pairs
                   billed with modifier 59 did not meet program requirements. Carrier
                   reviews also indicated that providers were using modifier 59
                   inappropriately. We recommend that CMS encourage carriers to
                   conduct prepayment and postpayment reviews of the use of modifier 59.
                   We believe carriers should use data analysis to determine how to best
                   carry out these reviews. Because we found that a small number of code
                   pairs made up more than half of the services that were not distinct in
                   our sample, carriers may want to focus their initial analysis on these
                   code pairs.
                   The Centers for Medicare & Medicaid Services should ensure that
                   the carriers’ claims processing systems only pay claims with
                   modifier 59 when the modifier is billed with the correct code. The

 OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   iii
E X E C U T I V E                   S U          M M A R Y


                   “Medicare Claims Processing Manual” states that modifier 59 should be
                   billed with the secondary, additional, or lesser service in the CCI code
                   pair. However, our analysis indicated that the majority of carriers paid
                   for at least 10 percent of their claims billed with modifier 59 when the
                   modifier was attached to the primary code only. This raises questions
                   about how Medicare guidelines are being applied within the carriers’
                   claims processing systems.


                   AGENCY COMMENTS
                   CMS concurred with our recommendation to encourage carriers to
                   conduct prepayment and postpayment reviews of the use of modifier 59.
                   CMS stated it would inform its contractors of our study so they can
                   consider our data when prioritizing their payment review strategies.
                   After these reviews are completed, suspected fraud and abuse cases will
                   be forwarded to the appropriate program safeguard contractor for
                   further development.

                   CMS also concurred with our recommendation to ensure that carriers’
                   claims processing systems only pay claims when modifier 59 is billed
                   with the secondary code. However, CMS reports that it is not able to
                   implement an edit to ensure this correct coding at the present time.
                   Instead, CMS will:
                   o 	 Distribute this report to its contractors responsible for identifying
                         improper payments and potential fraud, waste, and abuse.
                   o 	 Share this report with the Recovery Audit Contractors that were
                         implemented on a pilot basis under the Medicare Prescription
                         Drug, Improvement, and Modernization Act of 2003.
                   o 	 Issue a “Medlearn Matters” article to provide continuing
                         education to physicians on how to bill modifier 59 appropriately.

                   The full text of CMS’s comments can be found in the “Agency
                   Comments” section of this report.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We appreciate CMS’s multipronged approach to addressing the
                   inappropriate billing and use of modifier 59 on Medicare claims. While
                   CMS reports that it cannot implement a claims processing edit to
                   ensure that claims with modifier 59 are billed with the correct code at
                   this time, we hope CMS will consider implementing this type of edit in
                   the future.

 OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   iv
Δ   T A B L E           O F             C O N T E N T S                                  




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 9

                    Forty percent of services did not meet requirements. . . . . . . . . . . . 9 


                    Modifier 59 billed with incorrect code . . . . . . . . . . . . . . . . . . . . . . 12 


                    Reviews found inappropriate use . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    A: Description of Stratified Sample. . . . . . . . . . . . . . . . . . . . . . . . 16 


                    B: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 17 




         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

Δ   I N T R O D U C T I O N                                              



                  OBJECTIVE
                  To determine (1) whether modifier 59 is being used inappropriately to
                  bypass Medicare’s National Correct Coding Initiative (CCI) edits
                  and (2) to what extent Medicare carriers are reviewing the use of
                  modifier 59.


                  BACKGROUND
                  The Medicare program provides coverage of health care services for the
                  elderly and disabled. The Centers for Medicare & Medicaid Services
                  (CMS) administers the Medicare program and contracts with carriers
                  nationwide to process most Medicare Part B claims. Part B claims
                  include those for physician, radiology, and laboratory services.
                  Medicare paid approximately $77 billion for Part B services in fiscal
                  year (FY) 2003.
                  National Correct Coding Initiative
                  In January 1996, CMS put the CCI into effect. This initiative was
                  developed to promote correct coding by providers and to prevent
                  Medicare payments for improperly coded services. CMS developed the
                  coding policies based on coding conventions defined in the American
                  Medical Association’s “Current Procedural Terminology (CPT) Manual,”
                  national and local policies and edits, coding guidelines developed by
                  national societies, a review of current coding practices, and analysis of
                  standard medical and surgical practices.4 CMS works with a contractor
                  to continually review and refine the CCI edits with input from national
                  medical societies, carriers, and providers.

                  CMS provides the CCI edit files to the carriers each quarter. The CCI
                  edits are updated quarterly; however, the most current version contains
                  all prior additions and deletions of edits. Previously, providers had to
                  purchase the CCI edits; but as of September 2003, the CCI edits are
                  available for providers to reference or download from CMS’s Web site.5
                  National Correct Coding Initiative Edits
                  Medicare providers use the Healthcare Common Procedure Coding
                  System (HCPCS) to code services provided to Medicare beneficiaries.
                  The CCI edits contain pairs of HCPCS codes (i.e., code pairs) that


                  4 “National Correct Coding Policy Manual for Medicare Part B Carriers,” Introduction, p. vi.
                  5 http://www.cms.hhs.gov/physicians/cciedits/default.asp.




OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S              1
I N T R O D        U C T          I O N


                    generally should not be billed together by a provider for a beneficiary on
                    the same date of service. All code pairs are arranged in a column 1 and
                    column 2 format. The column 2 code is generally not payable with the
                    column 1 code. Throughout this report we will refer to the column 1
                    code as the primary code or service and the column 2 code as the
                    secondary code or service.
                    Modifier 59
                    Under certain circumstances, a provider may bill for two services in a
                    CCI code pair and include a modifier on the claim. A modifier is a two-
                    digit code that further describes the service performed. A modifier
                    would allow the code pair to bypass the edit and both services would be
                    paid. Each CCI code pair has a modifier indicator that determines
                    whether a modifier can be used. Thirty-five modifiers can be used to
                    bypass the CCI edits. Modifier 59 is one of these modifiers.

                    In FY 2003, Medicare allowed $370 million for Part B services that
                    bypassed the CCI edits using a modifier.6 Of this amount, $245 million
                    (66 percent) was allowed for services that bypassed the CCI edits using
                    modifier 59.
                    Proper Use of Modifier 59
                    Pursuant to the “Medicare Claims Processing Manual”7 and the “CPT
                    Manual 2003,”8 modifier 59 is used to indicate that a provider
                    performed a distinct procedure or service for a beneficiary on the same
                    day as another procedure or service. It may represent a:
                    o     Different session,
                    o     Different procedure or surgery,

                    o     Different anatomical site or organ system,

                    o     Separate incision or excision,

                    o     Separate lesion, or

                    o     Separate injury (or area of injury in extensive injuries).

                    Modifier 59 should not be used with the radiation treatment
                    management code 77427 or with the evaluation and management


                    6 This figure represents the dollar amount paid for the secondary code in a code pair when a

                        beneficiary had no more than two services on the same day by the same provider.
                    7 Chapter 23, section 20.9. http://www.cms.hhs.gov/manuals/104_claims/clm104c23.pdf.
                    8 Appendix A, p. 404.




 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S              2
I N T R O D        U C T          I O N


                    service codes 99201-99499. Modifier 59 should only be used if there is
                    no other CCI modifier that best explains the circumstances.
                    The “Medicare Claims Processing Manual” further clarifies that
                    modifier 59 should be attached to the secondary, additional, or lesser
                    service in the code pair.9 According to CMS, this is the second code in a
                    CCI code pair.10 The following example explains the proper use of
                    modifier 59:
                               If an infusion procedure is performed, the routine placement of
                               the intravenous catheter for that procedure should not be billed
                               separately because it is considered a component of the infusion
                               procedure. However, if a catheter is placed in a different site
                               later in the day, modifier 59 should be attached to the code
                               representing the placement of the catheter. This would indicate
                               that two separate procedures were actually performed. In this
                               case, both codes would be paid.11

                    Documentation Requirements
                    Providers must maintain adequate documentation in the medical record
                    to support the services billed. Section 1833(e) of the Social Security Act
                    requires that providers furnish “such information as may be necessary
                    in order to determine the amounts due” in order to receive Medicare
                    payment. In addition, pursuant to the “Medicare Claims Processing
                    Manual,” when modifier 59 is used, a provider’s documentation must
                    demonstrate that the service was distinct from other services performed
                    that day.12 For example, to allow both a bone marrow biopsy procedure
                    and a bone marrow aspiration procedure to be billed together, the
                    medical record must indicate that the services were performed through
                    separate incisions or at separate sessions.13 Other types of CCI code
                    pairs must have documentation demonstrating that the services were




                    9 Chapter 23, section 20.9, http://www.cms.hhs.gov/manuals/104_claims/clm104c23.pdf.
                    10 National Correct Coding Initiative Frequently Asked Questions,
                      http://www.cms.hhs.gov/physicians/cciedits/.
                    11 Adapted from, “National Correct Coding Policy Manual for Medicare Part B Carriers,”
                      version 9.3, Chapter XI, p. 1.
                    12 Chapter 12, section 30, http://www.cms.hhs.gov/manuals/104_claims/clm104c12.pdf.
                    13 “National Correct Coding Policy Manual for Medicare Part B Carriers,” version 9.3,
                      Chapter I, pp. 14-15.



 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S             3
I N T R O D        U C T          I O N


                    performed sequentially14 or that a different level of service was provided
                    to indicate that the services were distinct from each other.15
                    Carrier Guidance
                    CMS provides carriers with guidance and instructions on the correct
                    coding of claims, including the use of modifier 59, through manuals,
                    transmittals, and the CMS Web site. CMS’s Web site contains the CCI
                    edits as well as the “National Correct Coding Policy Manual for
                    Medicare Part B Carriers” (NCCI policy manual), the “Medicare Claims
                    Processing Manual,” and responses to frequently asked questions
                    concerning CCI. The NCCI policy manual contains a general policy
                    chapter and 10 narrative chapters each corresponding to a separate
                    section of the “CPT Manual.” Most chapters contain some examples of
                    circumstances when it is appropriate to use modifier 59 with certain
                    code pairs or types of code pairs. This manual is updated each year in
                    October.
                    Education for Providers
                    CMS requires carriers to educate providers concerning issues such as
                    correct coding. Using data analysis, carriers develop their own
                    strategies for conducting prepayment and postpayment medical review
                    to identify errors. Carriers target individual providers who require
                    education when claims review indicates billing problems. Depending on
                    the level of error identified, carriers may address providers’ coverage or
                    coding-related problems through educational letters, telephone
                    conferences, or face-to-face meetings. Carriers also use mass media and
                    training seminars to give timely and accurate Medicare information to
                    the provider community.
                    Clarification of the National Correct Coding Initiative Policy Manual
                    During the course of our inspection, we shared information with the
                    CCI workgroup16 concerning CCI edits that were frequently bypassed
                    using modifier 59. The workgroup addressed many of the issues
                    concerning these code pairs when updating the October 2004 version
                    of the NCCI policy manual.




                    14 “National Correct Coding Policy Manual for Medicare Part B Carriers,” version 9.3,

                      Chapter XI, p. 9.
                    15 Ibid., Chapter X, p. 3.
                    16 The workgroup consists of staff at CMS headquarters and at the CCI contractor.




 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S            4
I N T R O D        U C T          I O N 




                    METHODOLOGY
                    Sample Selection
                    We matched the CCI edits that were in effect in FY 2003 against
                    100 percent FY 2003 Part B claims data from CMS’s National Claims
                    History File. To determine if a code pair was active on a particular date
                    of service and if the code pair allowed a modifier on that date, we used
                    the CCI edits from version 9.3 (October 2003) as well as the modifier
                    indicator change lists from version 8.3 (October 2002) through version
                    9.3.

                    We defined our population as code pairs that allowed a modifier and
                    that bypassed the CCI edits because modifier 59 was present. The
                    population consisted of approximately 3.4 million code pairs with
                    $227 million in payments for the secondary codes after we excluded the
                    following services:
                    o 	 Code pairs that had another valid CCI modifier in addition to
                          modifier 59,17
                    o 	 Services where a beneficiary had more than two services on the
                          same day by the same provider,18
                    o 	 Services represented by codes 99201-99499 or 77427 since
                          modifier 59 should not be billed with these codes,
                    o 	 Services rendered by three providers who were under
                          investigation, and
                    o 	 Services where the payment for the secondary service in the code
                          pair was less than or equal to $24.19
                    From the population, we selected a stratified random sample of 350 code
                    pairs to send to an independent contractor for coding review. The strata
                    definitions were based on the frequencies of code pairs in the
                    population, the dollar amount of the secondary code in a code pair, and
                    information received from members of the CCI workgroup. The details
                    of our stratification are outlined in Appendix A.


                    17 These code pairs were excluded to be certain that the use of modifier 59 was the only
                      reason CCI edits were bypassed.
                    18 No additional analysis was conducted to determine the effect this had on the types of
                      services excluded from our population.
                    19 Excluding these services eliminated 25 percent of code pairs (1 million) and 6 percent of
                      the dollars ($15 million) from our population.



 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S                   5
I N T R O D        U C T          I O N


                    Medical Record Request
                    We sent our initial written request for medical records by Federal
                    Express to all providers in our sample. The requests were sent to
                    addresses found in CMS’s Unique Provider Identification Number
                    (UPIN) file. A number of requests were returned as undeliverable. We
                    looked for alternate addresses in the UPIN file, searched the Internet,
                    and contacted carriers to find correct address information. We
                    continued to send requests to alternate addresses until we found a valid
                    address or exhausted all possibilities. We were unable to locate six
                    providers. We removed the services performed by these providers from
                    subsequent data analysis.

                    We sent up to two follow-up requests by Federal Express to providers
                    who did not respond to our first request. We were able to contact
                    providers for 344 code pairs in our sample. Three of these providers
                    were excluded from our data analysis because they were unable to
                    provide the records for a valid reason or the records arrived too late to
                    be included in our coding review. This left us with 341 CCI code pairs
                    for analysis. Of these, six were considered undocumented because the
                    provider did not send the records requested. The remaining 335 records
                    were forwarded for coding review.
                    Medical Record Review
                    We sent 335 medical records to an independent contractor for coding
                    review to determine whether modifier 59 was used inappropriately to
                    bypass CCI edits. The records were reviewed by experienced certified
                    coders. We asked the coders to determine whether both services in the
                    code pairs were documented, whether another code should have been
                    billed for one or both of these services, and whether the services were
                    distinct from each other. For services that were not distinct, we asked
                    the coders to describe why they were not distinct services. We provided
                    the coders with a copy of the October 2003 version of the NCCI policy
                    manual and instructed them to refer to it as well as the 2002 and 2003
                    CPT and HCPCS manuals in making their determinations. The coding
                    review was conducted between October and December 2004.
                    Calculation of Improper Payments
                    We calculated the total amount paid for secondary services in CCI code
                    pairs when the services were not distinct or the secondary services were
                    not adequately documented. It is the secondary code in the code pair
                    that would be denied by the CCI edits. We did not include the dollar
                    amounts for code pairs when the coding review determined that only the


 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   6
I N T R O D        U C T          I O N


                    primary code was not documented20 or that one or both services should
                    have been coded differently.21 We totaled the allowed amounts for
                    inappropriate services and weighted the estimates to reflect our
                    stratified sample design. The point estimates and confidence intervals
                    for these statistics are presented in Appendix B.
                    Claim Data Review
                    We performed separate analysis on the 3.4 million FY 2003 code pairs
                    from which we selected our sample to determine whether modifier 59
                    was billed with the primary or secondary code in the CCI code pairs.
                    This analysis enabled us to determine whether the carriers’ claims
                    processing systems handled claims according to the requirements in the
                    “Medicare Claims Processing Manual.” The manual instructs providers
                    to bill modifier 59 with the secondary, additional, or lesser service in a
                    CCI code pair.22 According to CMS, this is the second code in a CCI code
                    pair.23 We considered modifier 59 to be billed with the incorrect code
                    when modifier 59 was billed with the primary code only. To calculate
                    the amount paid when modifier 59 was billed with the primary code
                    only, we totaled the payments for the secondary services in these code
                    pairs.
                    The Centers for Medicare & Medicaid Services and Carrier Surveys
                    We conducted telephone surveys with CMS central office and each CMS
                    regional office to determine what roles they have in ensuring the proper
                    use of modifier 59. These surveys were conducted between January and
                    May 2004.

                    We also surveyed all Medicare Part B carriers to determine the extent
                    to which carriers review the use of modifier 59. We asked the carriers
                    about their medical review activities, claims processing systems, and
                    provider education and outreach activities.

                    We received 30 individual survey responses. The 30 responses
                    represented all 56 carrier jurisdictions since some carriers handle
                    operations for more than 1 State. If carrier operations differed from

                    20 These payments were excluded because our estimates of improper payments were based
                      on the allowances for the secondary code only.
                    21 Since we did not analyze whether these services were upcoded (billed at a higher level
                      than the service actually performed) or downcoded, we did not calculate the amount
                      Medicare allowed for the services.
                    22 Chapter 23, section 20.9, http://www.cms.hhs.gov/manuals/104_claims/clm104c23.pdf.
                    23 National Correct Coding Initiative Frequently Asked Questions,
                      http://www.cms.hhs.gov/physicians/cciedits/.



 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S                7
I N T R O D        U C T          I O N


                    jurisdiction to jurisdiction, we instructed the carriers to complete more
                    than one survey; otherwise, we instructed them to complete one survey.
                    In our analysis, we applied the carrier’s response to all of the applicable
                    jurisdictions. Therefore, our total number of carriers is 56. We
                    conducted the surveys from October through December 2004.
                    Standards
                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency and the Executive Council on Integrity and
                    Efficiency.




 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   8
Δ    F I N D I N G S



                                                      Medicare allowed payments for
      Forty percent of code pairs billed with
                                                      40 percent of code pairs that did
modifier 59 in FY 2003 did not meet program           not meet the following program
   requirements, resulting in $59 million in          requirements: (1) the services were
                         improper payments            not distinct from each other or
                                                      (2) the services were not adequately
                   documented. We estimate that Medicare allowed $59 million for these
                   services in FY 2003. A summary of improper payments is presented in
                   Table 1 below.



                       Table 1. Code Pairs That Did Not Meet Program Requirements

                                                                                                            Projected
                                                  Type of Error                                    Percentage        Allowed
                                                                                                    of Code          Amount
                                                                                                      Pairs         (Millions)

                       Services not distinct                                                          15%               $31

                       Services not adequately documented                                             25%               $28

                         - Primary, secondary, or both services not                                                          1
                                                                                                      12%              $16
                          documented
                                                                                                                             2
                         - Different code should have been billed                                      7%              N/A

                         - Documentation insufficient to make a
                                                                                                       5%               $9
                          determination

                         - Documentation not provided                                                  1%               $3

                       Total                                                                          40%               $59

                   1
                       Estimate includes allowed amounts for secondary services only.

                   2
                       We did not estimate allowed amounts when one or both services should have been coded differently. 

                   Source: Office of Inspector General analysis of medical records request and coding review results,
                   2005.


                   Fifteen percent of code pairs billed with modifier 59 were not distinct.
                   Modifier 59 was used inappropriately with 15 percent of the code pairs
                   because the services were not distinct from each other. In most cases,
                   services were not distinct because they were performed at the same
                   session, same anatomical site, and/or through the same incision.
                   Medicare allowed an estimated $31 million for the secondary services in
                   these code pairs. Secondary services are the services that CCI edits
                   would deny.


 OEI-03-02-00771   USE   OF    MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S                                 9
F   I N D I N G        S


                      Five code pairs represented over half of the services that were not distinct.
                      Just five code pairs made up 53 percent of the services that were not
                      distinct, representing an estimated $11 million in payments. We
                      compared the percentage of services that were not distinct for these five
                      code pairs to the percentage of services that were not distinct for all
                      other code pairs in our population. Our comparison found a statistically
                      significant difference between these two groups.24
                      In our sample data, modifier 59 was used inappropriately most often
                      with the CCI code pair for bone marrow biopsy (38221) and bone
                      marrow aspiration (38220). This code pair represented 13 of our
                      62 sampled services that were not distinct from each other. In all of
                      these cases, modifier 59 was inappropriate because the two services
                      were not distinct since they were performed at the same session and
                      through the same incision. Pursuant to the NCCI policy manual, these
                      two procedures are only distinct when performed through different
                      incisions or at different sessions.25
                      A code pair for physical therapy (97140/97530) represented another
                      eight of our sampled services that were not distinct from each other. In
                      all of these cases, modifier 59 was not appropriate because the medical
                      record did not document that the services were performed in different
                      15-minute time intervals. Pursuant to the “Medicare Claims Processing
                      Manual,” time spent performing physical therapy services must be
                      included in the medical record.26 Without this documentation, these
                      services cannot be considered distinct.

                      A cytopathology code pair (88108/88104) represented six of the services
                      billed inappropriately with modifier 59 in our sample. In most of these
                      cases, the documentation showed that the services were performed on
                      the same specimen; therefore, pursuant to the NCCI policy manual,
                      only one code should have been billed.27
                      Two code pairs for chemotherapy and IV infusion (96410/90780 and
                      96408/90780) represented another six of our sampled services that were
                      not distinct. In all of these cases, the documentation showed that two


                      24 For the five code pairs, 29 percent of services were not distinct. For all other code pairs,

                           9 percent of services were not distinct. This difference is statistically significant at the
                           95 percent confidence level based on a chi-square test of independence (p = .0016).
                      25 Version 9.3, Chapter I, pp. 14-15. 

                      26 Chapter 5, Section 20.2, http://www.cms.hhs.gov/manuals/104_claims/clm104c05.pdf. 

                      27 Version 9.3, Chapter X, p. 3. 





    OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S                        10
F   I N D I N G 
S


                      services were performed but did not indicate whether the supportive
                      medication was administered sequentially to the chemotherapy.
                      Pursuant to the NCCI policy manual, such documentation is needed to
                      demonstrate that these services were performed at different sessions
                      and, therefore, are both payable.28
                      Services for an additional 28 code pair combinations in our sample were
                      found to be not distinct. Each of these code pairs had one or two
                      services that were not distinct.
                      Twenty-five percent of the code pairs billed with modifier 59 were not
                      adequately documented. Modifier 59 was used inappropriately with
                      25 percent of the code pairs because the services were not adequately
                      documented in the medical record. In most cases, either one or both of
                      the services in a code pair was not documented or the documentation
                      indicated that a different code should have been billed for one or both of
                      the services. In the remaining cases, either the documentation was
                      insufficient to make a determination or the documentation was not
                      provided. Medicare allowed an estimated $28 million for the secondary
                      services in these code pairs.
                      One or both services not documented. For 12 percent of the code pairs, one
                      or both of the services billed were not documented in the medical record.
                      Specifically, in 4 percent of code pairs, the primary service was not
                      documented. We did not calculate the amount Medicare allowed for
                      these services. In the remaining 8 percent of these code pairs, either
                      both services were not documented or the secondary service was not
                      documented. Medicare allowed an estimated $16 million for secondary
                      services when these services were not documented. For example, one
                      provider billed for two podiatry services. However, the medical record
                      only showed that the patient visited the office to pick up medication.
                      The record did not include documentation for either podiatry service
                      billed.
                      Different code should have been billed. For 7 percent of the code pairs,
                      another code should have been billed for one or both of the services
                      performed. We did not analyze whether these services had been
                      upcoded (billed at a higher level than the service actually performed) or
                      downcoded. Therefore, we did not calculate the amount Medicare
                      allowed for these services.


                      28 Version 9.3, Chapter XI, p. 9.




    OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   11
   F   I N D I N G        S


                         Documentation insufficient to make a determination. For 5 percent of the
                         code pairs, the documentation provided was not sufficient to determine
                         whether the services were distinct. In these cases, the documentation
                         provided was not legible or did not sufficiently support the use of the
                         code(s) billed. For example, a provider documented removal of polyps
                         but not the specific technique for the removal. Therefore, the
                         documentation was insufficient for the coder to determine the correct
                         code for the procedure. Medicare allowed an estimated $9 million for
                         the secondary services in these code pairs.
                         Documentation not provided. Providers did not send us the requested
                         records for 1 percent of the code pairs. These providers either did not
                         send records for the beneficiary for the date of service we requested or
                         did not send records for the beneficiary at all. Medicare allowed an
                         estimated $3 million for the secondary services in these code pairs.

                         Confidence intervals for these estimates are presented in Appendix B.



                                                              The “Medicare Claims Processing
Eleven percent of code pairs billed with modifier             Manual” states that modifier 59
 59 in FY 2003 were paid when the modifier was                should be billed with the secondary,
                   billed with the incorrect code             additional, or lesser service in a CCI
                                                              code pair. According to CMS, this is
                         the second code in a CCI code pair. However, our review of 3.4 million
                         code pairs billed with modifier 59 in FY 2003 found that 11 percent of
                         the code pairs were paid when modifier 59 was attached to the primary
                         code only. This billing error represented $27 million in Medicare paid
                         claims.
                         In addition, another 13 percent of code pairs were paid when modifier
                         59 was billed with both the primary and secondary codes. The
                         remaining 76 percent of code pairs were paid when modifier 59 was
                         attached to the secondary code only.

                         For each carrier, we analyzed the paid claims for code pairs billed with
                         modifier 59. Thirty-seven carriers paid for at least 10 percent of their
                         code pairs when the modifier was attached to the primary code only.
                         These carriers paid between 10 and 32 percent of code pairs billed with
                         modifier 59 when modifier 59 was billed with the primary code only.
                         Nineteen of the thirty-seven carriers paid between 10 and 15 percent,
                         16 carriers paid between 16 and 28 percent, and 2 carriers paid 32



       OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   12
F   I N D I N G        S


                      percent for code pairs billed with modifier 59 when modifier 59 was
                      billed with the primary code only.



   Most carriers did not conduct reviews of                 Between 2002 and 2004, 11 of
                                                            56 carriers conducted 1 or more
modifier 59, but those carriers that did found
                                                            reviews of the use of modifier 59.
       providers who were using modifier 59
                                                            Two carriers had conducted
                              inappropriately               prepayment reviews of modifier 59,
                      eight had conducted postpayment reviews, and one conducted both
                      types of reviews. Ten carriers completed at least one review and one
                      carrier’s only review was still in progress. All of the carriers that
                      completed reviews reported that they found providers who were using
                      modifier 59 inappropriately. Many carriers chose to focus on modifier
                      59 because they had identified vulnerabilities through analysis of claims
                      data or through provider appeals and denials.

                      The 11 carriers conducted a total of 32 reviews of services billed with
                      modifier 59. One-third of the 32 reviews conducted by the carriers
                      found error rates of 40 percent or more among certain providers for
                      services billed with modifier 59. Specifically, three of these reviews
                      found error rates of nearly 100 percent among providers billing for bone
                      marrow biopsy and bone marrow aspiration with modifier 59. As stated
                      previously, this is the code pair that made up the highest number of
                      services in our sample that were not distinct from each other. Another
                      six reviews found error rates between 5 and 20 percent for services
                      billed with modifier 59. Five reviews found no errors. We did not
                      receive error rates for 10 reviews because either the reviews were still
                      in progress or the error rate was not provided by the carrier.
                      Several carrier reviews resulted in the collection of overpayments. One
                      carrier recovered over $200,000 in improper payments. In addition,
                      some carriers put certain providers’ claims under review as a result of
                      their findings. Carriers that conducted reviews and found
                      inappropriate use of modifier 59 reported that they either educated
                      individual providers on the proper use of the modifier or offered all
                      providers education on modifier 59 through seminars and/or newsletter
                      articles.




    OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   13
Δ   R E C O M M E N D A T I O N S                                                                





                  The Centers for Medicare & Medicaid Services should encourage
                  carriers to conduct prepayment and postpayment reviews of the use
                  of modifier 59. Our inspection found that 40 percent of code pairs
                  billed with modifier 59 were inappropriate. Carrier reviews also
                  indicated that providers were using modifier 59 inappropriately. We
                  recommend that CMS encourage carriers to conduct prepayment and
                  postpayment reviews of the use of modifier 59. We believe carriers
                  should use data analysis to determine how to best carry out these
                  reviews. Because we found that a small number of code pairs made up
                  more than half of the services that were not distinct in our sample,
                  carriers may want to focus their initial analysis on these code pairs.
                  The Centers for Medicare & Medicaid Services should ensure that
                  the carriers’ claims processing systems only pay claims with
                  modifier 59 when the modifier is billed with the correct code. The
                  “Medicare Claims Processing Manual” states that modifier 59 should be
                  billed with the secondary, additional, or lesser service in the CCI code
                  pair. However, our analysis indicated that the majority of carriers paid
                  at least 10 percent of their claims billed with modifier 59 when the
                  modifier was attached to the primary code only. This raises questions
                  about how Medicare guidelines are being applied within carriers’ claims
                  processing systems.


                  AGENCY COMMENTS
                  CMS concurred with our recommendation to encourage carriers to
                  conduct prepayment and postpayment reviews of the use of modifier 59.
                  CMS stated it would inform its contractors of our study so they can
                  consider our data when prioritizing their payment review strategies.
                  After these reviews are completed, suspected fraud and abuse cases will
                  be forwarded to the appropriate program safeguard contractor for
                  further development.

                  CMS also concurred with our recommendation to ensure that carriers’
                  claims processing systems only pay claims when modifier 59 is billed
                  with the secondary code. However, CMS reports that it is not able to
                  implement an edit to ensure this correct coding at the present time.
                  Instead, CMS will:


OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S       14
R 	E C O      M M E N D A T                  I O N                S


                   o 	 Distribute this report to its contractors responsible for identifying
                         improper payments and potential fraud, waste, and abuse.
                   o 	 Share this report with the Recovery Audit Contractors that were
                         implemented on a pilot basis under the Medicare Prescription
                         Drug, Improvement, and Modernization Act of 2003.
                   o 	 Issue a “Medlearn Matters” article to provide continuing
                         education to physicians on how to bill modifier 59 appropriately.

                   The full text of CMS’s comments can be found in the “Agency
                   Comments” section of this report.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We appreciate CMS’s multipronged approach to addressing the
                   inappropriate billing and use of modifier 59 on Medicare claims. While
                   CMS reports that it cannot implement a claims processing edit to
                   ensure that claims with modifier 59 are billed with the correct code at
                   this time, we hope CMS will consider implementing this type of edit in
                   the future.




 OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   15
   Δ           A P P E N D I X                                  ~           A             



 Description of Stratified Sample

                                                                                                               Population   Medicare            Sample
                                                                                                               of Code      Allowance for       size
 Strata                                         Description of Code Pairs
                                                                                                               Pairs        Secondary
                                                                                                                            Code

1- High             17000/11100 Destroy benign, premalignant lesion/ Biopsy of skin lesion                     1,214,267    $ 65,981,193         75
frequency code
                    96410/90780 Chemotherapy infusion method/ IV infusion therapy, 1 hr
pairs
                    97140/97530 Manual therapy/ Therapeutic activities

                    96408/90780 Chemotherapy, push technique/ IV infusion therapy, 1 hr

2- High             11055-56/         Trim skin lesion-Trim skin lesions, 2 to 4/                              623,654      $ 21,373,167         50
frequency-          11720-21          Debride nail, 1 to 5-Debride nail, 6 or more
debridement
                    11719/11720 Trim nail(s)/ Debride nail, 1 to 5
services
                    11057/11721 Trim skin lesions, over 4/ Debride nail, 6 or more

                    11040/11721 Debride skin, partial/ Debride nail, 6 or more

3- Potential high 88108/88104 Cytopathology, concentrate tech/ Cytopathology, fluids                           74,942       $4,554,038           40
error rate and
high frequency      38221/38220 Bone marrow biopsy/ Bone marrow aspiration
code pairs

4- Potential high Any combinations of the following codes: pathology codes: 88104-88112                        41,741       $ 5,327,770          35
error rate and     (excluding 88108/88104), 88160-88162, 88173, 88174, 88180, 88271
low frequency      88275, 88300-88365; urinary codes: 52000-52640; eye surgery codes:
code pairs         65400-67228; extremity surgery codes: 23930-26952

5- High             Allowance for secondary code was greater than or equal to $200                             106,482      $ 39,225,417         50
secondary code      (excluding code pairs in strata 3 and strata 4)
dollar amount

6- Remaining        All other code pairs not in strata 1 through 5                                             1,365,551    $ 90,644,881         100
code pairs

Total                                                                                                          3,426,637    $227,106,466         350

Source: Office of Inspector General sample of FY 2003 CCI code pairs billed with modifier 59.




        OEI-03-02-00771         USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S                               16
Δ       A P P E N D I X                            ~             B

           The table below contains statistical estimates presented in the Findings section of
           this report. Point estimates and confidence intervals were weighted based on the
           stratified random sample design and are reported at the 95 percent confidence
           interval.


        Estimates and Confidence Intervals

        Statistic                                                          Point Estimate                95% Confidence Interval

                                                                                       40.22%                34.12% - 46.32%
        Total services that did not meet program
        requirements
                                                                                   $58,907,886           $47,210,537 - $70,605,236


                                                                                       14.79%                10.42% - 19.16%
        Services that were not distinct
                                                                                   $30,616,030           $21,456,650 - $39,775,409


                                                                                       25.43%                20.04% - 30.82%
        Services that were not adequately
        documented
                                                                                   $28,291,857           $19,466,497 - $37,117,217


                                                                                       11.96%                 7.94% - 15.98%
        Services where the primary, secondary, or
        both services were not documented
                                                                                   $16,368,134            $9,589,143 - $23,147,125

        Services where a different code should have
                                                                                        7.42%                 4.28% - 10.56%
        been billed

                                                                                        4.67%                  1.98% - 7.36%
        Services where the documentation was
                                                    1
        insufficient to make a determination
                                                                                    $8,580,251            $3,688,575 - $13,471,928


                                                                                        1.38%                   0% - 2.77%
        Services where the documentation was not
                 1
        provided
                                                                                    $3,343,472                $0 - $7,089,485


                                                                                       53.36%                38.70% - 68.02%
        Services represented by five code pair
        combinations that were not distinct
                                                                                   $11,222,880            $6,313,582 - $16,132,177


    1
        The relative precision for these estimates exceeds 50 percent.
    Source: Office of Inspector General analysis of medical records request and coding review results, 2005.


OEI-03-02-00771           USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S                               17
Δ   A G E N C Y                   C O M M E N T S                                                





OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S       18
A G   E N     C Y    C O          M M E N T                        S 





 OEI-03-02-00771    USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S   19
Δ   A C K N O W L E D G M E N T S                                                                




                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Tara Bernabe, Team Leader
                  Nancy J. Molyneaux, Program Analyst

                  Linda Frisch, Program Specialist

                  Doris Jackson, Program Specialist

                  Tricia Davis, Director, Medicare & Medicaid Branch

                  Barbara Tedesco, Mathematical Statistician

                  Kevin Farber, Mathematical Statistician

                  Scott Horning, Program Analyst

                  Steve Milas, Program Analyst

                  Michael P. Barrett, Program Analyst




OEI-03-02-00771   USE   OF   MODIFIER 59   TO   B Y PA S S M E D I C A R E ’ S C C I E D I T S       20
